HHS/OIG, Audit -"Review of the State of Delaware's Medicaid Drug Rebate Program,"(A-03-03-00203)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the State of Delaware's Medicaid Drug Rebate Program," (A-03-03-00203)
June 10, 2003
Complete
Text of Report is available in PDF format (751 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Delaware Department of Health and Social Services (DHHS) had
established adequate accountability and internal controls over rebate billings to drug manufacturers, the resulting rebate
collections, and the resolution of disputes.   Generally, DHHS had established adequate accountability and internal
controls over the Medicaid drug rebate program.  However, we found that (1) DHHS personnel had not routinely backed-up
spreadsheets that contained the states Medicaid drug rebate program information reported to CMS; and (2) DHHS overstated
its outstanding rebate receivables, and had not reported rebates invoiced and adjustment on the CMS 64.9R.